                   U.S. DEPARTMENT OF LABOR
               EVALUATION OF GRANT CLOSEOUT
                     PRACTICES APPLIED TO
             JOB TRAINING PARTNERSHIP ACT GRANTS

          GRANTS AWARDED TO THE COMMONWEALTH
                    OF PENNSYLVANIA

             INDEPENDENT ACCOUNTANTS’ REPORT
            ON APPLYING AGREED-UPON PROCEDURES




               JULY 1, 1997 THROUGH JUNE 30, 2000




R. Navarro & Associates, Inc. prepared this report under contract to the U.S.
Department of Labor, Office of Inspector General, and by acceptance it becomes a
report of the Office of Inspector General.


                        __________________________________________
                        Assistant Inspector General for Audit
                        U.S. Department of Labor




                                                   Report No.: 04-03-013-03-340
                                                   Date Issued: May 5, 2003


                  R. NAVARRO & ASSOCIATES, INC.
                                                   TABLE OF CONTENTS



ACRONYMS .................................................................................................................................iii

INDEPENDENT ACCOUNTANTS’ REPORT ON APPLYING AGREED-UPON
PROCEDURES............................................................................................................................... 1

SUMMARY OF FINDINGS .......................................................................................................... 2

BACKGROUND, OBJECTIVES, SCOPE AND METHODOLOGY .......................................... 3

          BACKGROUND ................................................................................................................ 3

          OBJECTIVES, SCOPE AND METHODOLOGY ............................................................. 3

PROCEDURES AND FINDINGS.................................................................................................. 4

EXHIBIT I – COMPLETE TEXT OF THE COMMONWEALTH OF
PENNSYLVANIA’S RESPONSE.................................................................................................. 7




                                                                     ii
                                   ACRONYMS



CFR     Code of Federal Regulations
DOL     U.S. Department of Labor
ETA     Employment and Training Administration
FAETC   Franklin-Adams Employment and Training Consortium
FSR     Financial Status Report
FY      Fiscal Year
JTPA    Job Training Partnership Act
L&I     Labor and Industry Federal Accounting Division
OIG     Office of the Inspector General
ICS     Integrated Centralized System
PY      Program Year
SFY     States Fiscal Year
SEFA    Schedule of Expenditures of Federal Awards
WIA     Workforce Investment Act




                                          iii
Mr. Elliot P. Lewis
Assistant Inspector General for Audit
Office of Inspector General
U.S. Department of Labor

                       INDEPENDENT ACCOUNTANTS’ REPORT
                      ON APPLYING AGREED-UPON PROCEDURES

We have performed the procedures enumerated in the “Procedures and Findings” section of this
report. The U.S. Department of Labor (DOL), Office of Inspector General (OIG), agreed to these
procedures. We completed the procedures solely to assist OIG in evaluating the Commonwealth
of Pennsylvania’s closeout practices for Job Training Partnership Act (JTPA) grants awarded by
the DOL Employment and Training Administration (ETA) from July 1, 1997 through June 30,
2000.

Management of the Commonwealth of Pennsylvania is responsible for closing JTPA grants in
accordance with applicable regulations and requirements established by ETA. ETA is
responsible for processing and certifying grant closure, and recording final obligation,
expenditure and payment information in DOL’s general ledger.

This agreed-upon procedures engagement was performed in accordance with the attestation
standards established by the American Institute of Certified Public Accountants, and Government
Auditing Standards issued by the Comptroller General of the United States. The sufficiency of
these procedures is solely the responsibility of your office as the specified user of the report.
Consequently, we make no representation regarding the sufficiency of the procedures performed
either for the purpose for which this report has been requested or for any other purpose.

The results of our procedures are described in the “Procedures and Findings” section of this
report.

We were not engaged to, and did not, perform an examination, the objective of which would be
the expression of an opinion on the accompanying information obtained from the respective
entities. Accordingly, we do not express such an opinion. Had we performed additional
procedures, other matters might have come to our attention that would have been reported to you.

This report is intended solely for the information and use of the DOL, OIG, and is not intended to
be, and should not be used, by anyone other than the specified party.



May 2, 2002
                                  SUMMARY OF FINDINGS


The Commonwealth of Pennsylvania (Commonwealth) submitted its Job Training Partnership
Act (JTPA) closeout package to the U.S. Department of Labor (DOL), Employment and Training
Administration (ETA) on December 28, 2000. We identified the final JTPA expenditures
reported on the final closeout report, and found that the expenditures reported reconciled to the
Commonwealth’s accounting records. In addition, the final expenditures reported were
reasonable based on amounts previously reported to ETA.

The JTPA program was audited as a major program in the Commonwealth’s single audits for
State Fiscal Year (SFY) 1999, SFY 2000 and SFY 2001. The SFY 2001 single audit report
included one unresolved finding pertaining to the JTPA program. The finding indicated that the
Labor and Industry Federal Accounting Division (L&I) did not adhere to its remedial plan to
ensure the subrecipients received annual single audits, as required by Office of Management and
Budget (OMB) Circular A-133; and subrecipient monitoring was not adequate to ensure that
high-risk subrecipients not submitting audit reports were administering JTPA programs in
compliance with federal regulations.

We visited two subrecipients, and found that final expenditures reported to the Commonwealth
reconciled to the subrecipients’ accounting records.


Commonwealth of Pennsylvania’s Response

The Pennsylvania Department of Labor and Industry, Bureau of Workforce Investment provided
a written response to our draft report, dated March 12, 2003, which is included in its entirety at
Exhibit I. For the most part, Pennsylvania agreed with the information presented in the report.
However, certain comments were provided regarding the open single audit finding presented in
this report. First, Pennsylvania clarified that the responsible agency was the Bureau of
Workforce Investment, Department of Labor and Industry. Second, Pennsylvania asserted that
their remediation plan for ensuring subrecipients receive single audits was never implemented
because “all subrecipients have either been audited, had an extension from the Bureau of Audits,
or their audit was already in progress.”

Independent Accountants’ Comments

Our procedures were limited to presenting findings reported in the single audit reports that the
single auditors consider to be unresolved. We understand that management’s perspective for
these findings may differ from that of the single auditors.

We have amended the name of the agency responsible for the single audit finding.




                                                 2
             BACKGROUND, OBJECTIVES, SCOPE AND METHODOLOGY


Background

The JTPA was enacted in 1982 to provide job training programs which would afford
disadvantaged youth and adults with the training necessary to obtain productive employment.
The JTPA program was repealed on June 30, 2000, when ETA implemented a successor
program, authorized by the Workforce Investment Act. The closeout of active JTPA grants
began in July 1999, with final closeouts due no later than December 31, 2000. Unspent funds
from the PY 1998 and PY 1999 JTPA State grants were authorized for transition into the WIA
program.

All JTPA closeout information is sent to the DOL, ETA, Office of Grant and Contract
Management, Division of Resolution and Appeals. According to 20 CFR, Part 627.485, JTPA
grants should normally have been closed within 90 days after the time limitation for expenditure
of JTPA funds. For PY 1997 grants, the 90-day limitation expired September 30, 2000.
However, in certain instances, ETA extended the reporting beyond that specified in the program
regulations. According to instructions set forth by ETA in the JTPA Financial Closeout
Technical Assistance Guide, final JTPA financial reports for PY 1998 and PY 1999 grants should
have been submitted no later than December 31, 2000.

Objectives, Scope and Methodology

In general, our procedures were designed to determine if: the Commonwealth of Pennsylvania
closed its JTPA grants on a timely basis in accordance with ETA instructions; amounts reported
in the closeout packages and/or the final cost reports were reasonable and supported by the
Commonwealth=s and subrecipients’ accounting records; and there were unresolved audit
findings pertaining to JTPA awards.

Our agreed-upon procedures include the JTPA funds awarded to the Commonwealth of
Pennsylvania for PYs 1997, 1998 and 1999, and FYs 1997 and 1998. Procedures were applied to
grant activities reported by the State and two subrecipients, Franklin-Adams Employment and
Training Consortium and the County of York, on final closeout reports.




                                               3
                             PROCEDURES AND FINDINGS


1.   Identify the Commonwealth’s JTPA grants to be included in the scope of these
     procedures, and the obligations and final reported expenditures related to each.

     The JTPA grants awarded to the Commonwealth and included in the scope of these
     procedures are as follows:


                    Federal      Total         Inter-title           Net         Expenditures
       Year and   Obligations Expenditures     Transfers         Expenditures        Per
         Title    Authority   (Computed)       Per FSRs           Per FSRs         Closeout     Difference

      FY 97 IIB   $ 36,804,007   $ 36,804,007 $(4,204,299)        $ 32,599,708    $ 32,599,708 $          0
      PY 97 II
      & III F       92,905,090    92,901,348     4,204,299         97,105,647      92,901,348      4,204,299
      PY 97 III
      EDWAA          6,871,623     6,379,563                 0      6,379,563       6,379,563             0
      FY 98 IIB     33,123,606    33,123,606    (3,529,808)        29,593,798      29,593,798             0
      PY 98 II
      & III-F       88,225,308    79,748,686     3,529,808         83,278,494      83,278,494             0
      PY 99 IIB
      & IIC         38,129,075    26,134,766         60,000        26,194,766      26,194,766             0
      PY 99 IIA
      & IIIF        74,798,233    23,066,585        (60,000)       23,006,585      23,006,585             0
       Total      $370,856,942 $298,158,561 $                0   $298,158,561    $293,954,262 $4,204,299



     The difference of $4,204,299 represents a transfer inadvertently netted by the
     Commonwealth in preparing the final closeout. The FSRs reflected the correct net
     expenditures of $298,158,561. This amount was also presented properly in the JTPA
     Financial Reconciliation Worksheet prepared by ETA.

2.   Determine if the JTPA grants awarded to the Commonwealth were closed on a
     timely basis in accordance with ETA instructions.

     The JTPA grants awarded to the Commonwealth were closed timely. The
     Commonwealth signed the Certification on December 28, 2000.




                                                4
3.   Inspect the closeout information reported to ETA, and determine if the information
     was reasonable based on data previously reported on final FSRs.

     The Commonwealth submitted final FSRs with the closeout package; consequently, there
     were no differences between the FSRs and the closeout. As an alternative procedure, we
     inspected the JTPA reconciliation worksheet prepared by ETA which identified the final
     cost entries required to be recorded in the DOL’s general ledger. This worksheet did not
     identify significant adjustments to previously recorded grant costs. Accordingly, the
     amounts reported on the closeout package are considered to be reasonable based on
     amounts previously reported to ETA.

4.   Determine if amounts reported on final cost reports or on the closeout package were
     supported by the Commonwealth’s accounting records.

     We compared the JTPA expenditures reported to the DOL on the closeout package to
     expenditures recorded in the Commonwealth’s accounting records, and found that the
     amounts reported reconciled to the Commonwealth’s official records.

5.   Select a sample of two final closeout reports submitted by subrecipients to the
     Commonwealth, and determine if the subrecipients’ final JTPA expenditures were
     accurately recorded in the Commonwealth’s accounting records.

     We obtained closeout reports submitted to the Commonwealth by two subrecipients, and
     compared the final expenditures reflected on the closeout reports to expenditures
     recorded in the Commonwealth’s accounting records. In both cases, the final
     subrecipient expenditures were accurately recorded in the Commonwealth’s accounting
     records.

6.   Obtain the Commonwealth’s single audit reports submitted for the two most recent
     fiscal years available, and identify the JTPA expenditures reported on the Schedule
     of Expenditures of Federal Awards (SEFA). Determine if these funds were tested as
     a major program, in accordance with single audit requirements.

     We obtained the Commonwealth’s single audit reports for SFY 2001 and SFY 2000, and
     identified the total JTPA expenditures reported on the Schedule of Expenditures of
     Federal Awards, $9.2 million and $101.0 million, respectively. The JTPA program
     cluster was listed as a major program for both fiscal years.

7.   Determine if the single audit reports identified reportable conditions, material
     weaknesses, report qualifications, or any other audit issues pertaining to JTPA
     grants that remain unresolved.

     The June 30, 2001 single audit report identified one unresolved reportable condition
     (finding 01-19) in which the auditors indicated that the Department of Labor and Industry

                                             5
      (L&I) did not adhere to its remedial action plan to ensure subrecipients received annual
      single audits required by OMB Circular A-133, and that subrecipient audit reports were
      not timely submitted to the Commonwealth. L&I’s remedial action plan called for L&I
      officials to take action in 1998, including notifying the subrecipient that the audit was due
      immediately, and in the case of continued noncompliance, declaring the subrecipient to
      be in default with the possibility of terminating the entity from its programs.

      In addition, the single auditors reported that L&I subrecipient monitoring procedures
      were not adequate to ensure that high-risk subrecipients not submitting audit reports were
      administering JTPA/ WIA programs in compliance with federal regulations.

8.    Obtain the final cost reports submitted by two subrecipients and determine if the
      amounts reported are supported by the subrecipients’ accounting records.

      We visited two subrecipients, the County of York and Frankin-Adams Employment and
      Training Consortium. For each subrecipient, we compared the final JTPA expenditures
      reported to the Commonwealth to expenditures recorded in the subrecipients’ accounting
      systems, and found that the amounts reconciled.

9.    Obtain the subrecipients’ single audit reports for two fiscal years and identify the
      JTPA expenditures reported on the Schedule of Expenditures of Federal Awards.
      Determine if the amounts agree or were reconciled by the single auditors to the
      expenditures recorded in the accounting records.

      We obtained the FY 1998 and FY 1999 single audit reports for both subrecipients visited,
      and identified the JTPA expenditures reported on the SEFA. We compared the SEFA
      expenditures to expenditures recorded in the subrecipients’ accounting records, and found
      that the amounts reconciled.

10.   Inspect the single audit reports submitted for the subrecipients and determine if
      there were reportable conditions, material weaknesses, report qualifications, or any
      other audit issues pertaining to JTPA grants that remain unresolved.

      A.     The June 30, 1999 single audit report for Franklin-Adams Employment and
             Training Consortium (FAETC) had one reportable condition (finding 99-1)
             relating to cash management. However, based on certain corrective actions, the
             auditors’ final conclusion was that no further action was required by the FAETC.

      B.     The June 30, 1999 single audit report for the County of York had one reportable
             condition (finding 99-1). The auditors stated that the County’s newly acquired
             accounting system did not provide the necessary financial information to account
             for or manage federal expenditures on a program basis. While the accounting
             system had the capability to provide detailed expenditure information by program,
             many agencies continued to maintain separate, off-ledger accounting records.


                                                6
                                                                              EXHIBIT I

                        THE COMPLETE TEXT OF
                 PENNSYLVANIA’S RESPONSE TO THE DRAFT
                   AGREED-UPON PROCEDURES REPORT




Following this title page is the complete text of Pennsylvania’s response to our agreed-
upon procedures report, issued to them on February 11, 2003.




                                         7
8
